WAIVER

SUPREME COURT OF THE UNITED STATES

No. 21-5655
| The State of Wyoming

Timothy Dean Leners

(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:

© Tam filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

|
|

| |
Please check the appropriate box:

Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

Tam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20542

  

   
  

 

Signature:

Date:

O Mr © Ms. O Mrs. O Miss

Firm Office of the Wyoming State Attorney General | ; : |
Address 109 State Capitol SO _ - / - a J
City & State Cheyenne We 7 / _ Zip 2002 =
Phone 307-777-7977 | Bmail jenny.craigi @wyo.gov |

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

(Timothy Dean Leners
ce:
